               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         Employee Retirement Options

         Management Advisory Report




                                              May 2, 2012

Report Number HR-MA-12-001
                                                                            May 2, 2012

                                                       Employee Retirement Options

                                                        Report Number HR-MA-12-001




IMPACT ON:
U.S. Postal Service employees who are        available to employees in the near
eligible to retire.                          future as part of new legislation related
                                             to the Postal Service. There may be
WHY THE OIG DID THE AUDIT:                   restrictions on how these options can be
This report responds to a request from       used and whether they can be
the postmaster general. The Postal           combined or not. Proposed changes to
Service is analyzing the options             health insurance benefits for employees
available for early retirement as it looks   and retirees, along with possible
to reduce the size of its workforce. Our     additional years of service credit
objective was to evaluate and describe       proposed in legislation, may cause
information on retirement options,           employees to evaluate retirement earlier
including those options that currently       than they otherwise might have.
exist and those that may become
available as part of new legislation or      The options described in this report
other Postal Service initiatives.            include:

Employees have many factors to                  Voluntary early retirement.
consider when retiring. We summarized           Cash buyouts.
several retirement options to assist            Additional years of service credit.
employees when considering retirement           Re-employment for annuitants.
opportunities.
                                             WHAT THE OIG RECOMMENDED:
WHAT THE OIG FOUND:                          We did not make any recommendations
In 2012, over 189,000 Postal Service         in this report.
employees will meet the age and
service eligibility requirements for
retiring with an immediate annuity. A
number of retirement options may be          Link to review the entire report
May 2, 2012

MEMORANDUM FOR:            ANTHONY J. VEGLIANTE
                           EXECUTIVE VICE PRESIDENT AND CHIEF HUMAN
                           RESOURCES OFFICER




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory Report – Employee Retirement
                           Options (Report Number HR-MA-12-001)

This report presents the results of our reporting of employee retirement options (Project
Number 11YG053HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Vinay K. Gupta
    Corporate Audit and Response Management
Employee Retirement Options                                                                                       HR-MA-12-001



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Retirement Options ......................................................................................................... 3

   Voluntary Early Retirement .......................................................................................... 4

   Cash Buyouts .............................................................................................................. 4

   Additional Years of Service Credit ............................................................................... 5

      Civil Service Retirement System .............................................................................. 5

      Federal Employees Retirement System ................................................................... 6

Re-employment for Annuitants ........................................................................................ 9

Appendix A: Additional Information ............................................................................... 12

   Background ............................................................................................................... 12

   Objective, Scope, and Methodology .......................................................................... 12

   Prior Audit Coverage ................................................................................................. 13
Employee Retirement Options                                                                           HR-MA-12-001




Introduction

This report presents the results of our review of current and recently proposed
employee retirement options (Project Number 11YG053HR000). The report responds to
a request from the postmaster general. Our objective was to evaluate and describe
information on retirement options, including those options that currently exist and those
that may become available as part of new legislation or other U.S. Postal Service
initiatives. This review addresses strategic, financial, and operational risks. See
Appendix A for additional information about this audit.

The U.S. currently faces economic and budgetary challenges. To address these
challenges and reduce the size of the federal budget, the legislature has initiated
several government-wide proposals, which could also affect Postal Service employees.
These proposals include:

   Changing the federal employees‘ retirement formula that currently uses the
    employees‘ average of their high-3 year‘s salary to a formula that uses the
    employees‘ average of their high-5 year‘s salary.1

   Increasing employees‘ contributions to the Civil Service Retirement System (CSRS)
    and the Federal Employees Retirement System (FERS).

   Limiting the FERS annuity supplement to employees subject to mandatory
    retirement.

Additionally, a bipartisan group of senators introduced the 21st Century Postal Service
Act of 2012,2 which includes provisions that would:

   Allow the Postal Service to offer up to 1 year of additional credited service for
    individuals in the CSRS and up to 2 years for individuals in the FERS as an incentive
    to encourage retirement.3




1
  The high-3 salary is the highest average basic pay an employee earned during any consecutive 3 years of
creditable service and the high-5 salary is the highest average basic pay an employee earned during any consecutive
5 years of creditable service.
2
  Section 1789, 112th Congress - although this bill was initially introduced as the "21st Century Act of 2011," it has
been renamed to reflect the date of the new year.
3
  Id. § 102.
                                                            1
Employee Retirement Options                                                                            HR-MA-12-001




   Direct the FERS overpayment4 to be transferred to the Postal Service and used for
    buyouts (up to the existing cap for federal workers of $25,000 for any one individual)
    or additional service credits.5

The Postal Service also proposed a plan to pull out of the Federal Employees Health
Benefits (FEHB) Program and administer its own healthcare plan, saving between
$60 and $70 billion.6 As part of its plan, the Postal Service proposed capping its health
care contributions at calendar year (CY) 2013 rates. The Postal Service‘s contribution
would be frozen at a specific dollar amount as of the end of CY 2013. Any subsequent
rate increases for employees retiring after January 1, 2014, would be paid by the
retiree. Employees who retire before January 1, 2014, would have their rate increases
capped at the consumer price index.7

Further, in response to its continuing decline in mail volume and revenue, the Postal
Service announced plans to close and consolidate 48 percent of its mail processing
plants. As a result, the Postal Service estimates it will have to reduce staffing by
220,000 career positions over the next 3 years. 8 Therefore, the Postal Service is
analyzing various early retirement options as it looks to reduce the size of its workforce.
The U.S. Postal Service Office of Inspector General (OIG) summarized several early
retirement options to assist employees when considering retirement opportunities.
Employees have many factors to consider when retiring and should analyze their
individual situations, obtain guidance and advice, and determine the best course of
action.

In 2012, more than 189,000 Postal Service employees will meet the age and service
eligibility requirements for retiring with an immediate annuity. For an immediate annuity,
CSRS and FERS employees must meet both the minimum age and service
requirements. See the following table for immediate retirement eligibility under CSRS
and FERS and the number of employees eligible to retire in 2012.




4
  The president‘s Fiscal Year 2013 Budget of the United States proposes to return to the Postal Service surplus
amounts it has paid into its Office of Personnel Management (OPM) account for its share of FERS costs. OPM has
determined that, as of September 30, 2010, this surplus is approximately $10.9 billion. Under the proposal, half of the
surplus would be paid back to the Postal Service in 2012 and the other half in 2013.
5
  Id. § 101.
6
  United States Postal Service Retiree Health Benefits Report dated September 23, 2011.
7
  An inflationary indicator that measures the change in the cost of a fixed group of products and services, including
housing, electricity, food, and transportation. The consumer price index is published monthly and is called the
cost-of-living index.
8
  From 2008 through 2011, the Postal Service offered employees voluntary early retirement and incentive payments,
resulting in a workforce reduction of 36,707 employees.


                                                           2
Employee Retirement Options                                                                           HR-MA-12-001




    Type           Immediate Retirement Eligibility                                                       Total9
    CSRS     Age 55 with 30 years of service                                                            24,970
             Age 60 with 20 years of service                                                            11,242
             Age 62 with 5 years of service                                                             25,940
    CSRS employees eligible to retire in 2012                                                           62,152
             At minimum retirement age (55 to 57) with 30 years of
    FERS                                                                                                  2,795
             service
             At age 60 with 20 years of service                                                         14,426
             At age 62 with 5 years of service                                                          50,832
             At minimum retirement age with 10 years of service10                                       58,925
    FERS employees eligible to retire in 2012                                                          126,978
    Total                                                                                              189,130

CSRS and FERS employees who do not meet both the minimum age and service
requirements for an immediate annuity may still be eligible for a deferred annuity if they
have at least 5 years of non-military civilian service. For CSRS employees, a deferred
retirement annuity is not payable until age 62, regardless of the years of service at
resignation. FERS employees are eligible for a deferred retirement annuity payable at
age 62 if they have more than 5 and less than 10 years of creditable civilian service.
FERS employees with 10 or more years of service can apply for a reduced deferred
annuity at their FERS minimum retirement age.1011 With 30 or more years, a FERS
employee would receive an unreduced annuity at their minimum retirement age. If a
FERS employee separates at minimum retirement age with at least 10 years of
creditable service, they are eligible for a reduced immediate retirement annuity;
however, to avoid the annuity reduction, they can postpone receiving their annuity until
age 62.

Retirement Options

There are a number of retirement options that are either currently available to Postal
Service employees or that could become available with the passage of new legislation
or the amendment of existing legislation. There may be restrictions on how the Postal
Service can use these options and whether they can be combined. The options
described in this report include:

   Voluntary early retirement.
   Cash buyouts.
   Additional years of service credit.

9
  We based the total number of employees eligible to retire on employees‘ retirement eligibility date in the web-based
Complement Information System pulled on September 22, 2011.
10
   FERS employees who retire at minimum retirement age with at least 10 but less than 30 years of service have their
benefit reduced by 5 percent per year for each year they are under age 62, unless they are age 60 or older with at
least 20 years of service.
11
   If an employee has at least 20 years of service they are eligible at age 60 for an unreduced annuity.


                                                          3
Employee Retirement Options                                                                            HR-MA-12-001



    Re-employment for annuitants.

Each of these options merits careful consideration when making retirement decisions.
Therefore, employees should carefully analyze their own situations, obtain guidance
and advice as appropriate, and determine the best course of action. The following are
descriptions of the options that employees should be aware of when considering
retirement.

Voluntary Early Retirement

The Postal Service currently has voluntary early retirement authority (VERA) for fiscal
year (FY) 2012 and may request an extension to FY 2013. VERA allows agencies
undergoing substantial restructuring, downsizing, transferring of function, or
reorganizing to temporarily lower the age and service requirements to increase the
number of employees eligible for an immediate retirement annuity. The Postal Service
has offered voluntary early retirement 10 times since 2008; five of these offers were in
2011. They made voluntary early retirement offers to specific groups of employees,
including maintenance employees, clerks, mail handlers, executive and administrative
schedule employees, carriers, and others. In addition, they targeted offers to specific
locations. When considering retirement, employees should determine how a voluntary
early retirement would affect their decision. See the following table for immediate
retirement eligibility under a VERA and the effect on CSRS and FERS annuities.

     Immediate                      CSRS Penalty and
     Retirement                     FERS Supplemental Annuity
Type
     Eligibility Under
     VERA
CSRS Any age with 25                Employees‘ annuities are reduced 2% a year for each year
     years of service               they retire before age 55 (calculated on a monthly basis).
     Age 50 with 20                 Employees‘ annuities are reduced 2% a year for each year
     years of service               they retire before age 55 (calculated on a monthly basis).
FERS Any age with 25                Employees‘ annuities are not reduced, but employees are
     years of service               not entitled to a FERS supplemental annuity12 until they
                                    reach minimum retirement age.
           Age 50 with 20           Employees‘ annuities are not reduced, but employees are
           years of service         not entitled to a FERS supplemental annuity until they reach
                                    minimum retirement age.

Cash Buyouts

Although the Postal Service is not part of the federal government‘s Voluntary Separation
Incentive Payment program, it relies on its own authority to offer a similar incentive to its

12
   The supplement is payable until eligibility for Social Security begins at age 62 and is subject to a reduction for
earnings similar to the Social Security reduction for earnings. The supplement, calculated by the OPM, approximates
the Social Security benefit an employee would receive at age 62 and prorates it for the years of FERS civilian service
divided by 40 years.


                                                          4
Employee Retirement Options                                                                      HR-MA-12-001



employees.13 The Postal Service can offer a special incentive (a lump sum payment
before taxes) to employees if they voluntarily separate from employment. The Postal
Service can limit who is eligible for the incentive; however, the special incentive offer,
including the amount and terms, is subject to collective bargaining and consultation with
the management associations.14 In addition, the Postal Service would normally seek to
include a requirement for the employee to repay the incentive amount if they later
accept employment in a career position with the Postal Service.

Additional Years of Service Credit

The 21st Century Postal Service Act of 2012 includes a provision that would allow the
Postal Service, through the OPM, to offer up to 1 year of additional credited service for
individuals in the CSRS and up to 2 years for individuals in the FERS as an incentive to
encourage retirement. The years of service credit gives employees who do not meet the
required service years, but are otherwise eligible, the option to retire. The years of
service credit does not change an employee‘s age requirement for retirement eligibility.
Employees would need to identify how this option would affect their unique situation.
Following are examples of how additional years of service credit, as proposed in the 21st
Century Postal Service Act of 2012, would affect a CSRS employee and a FERS
employee.

Civil Service Retirement System

CSRS consists mainly of an annuity calculated as a combination of years of service and
average high-3 years‘ annual salary. CSRS employees do not contribute to Social
Security and, therefore, do not receive a Social Security annuity payment.

Example 1 shows a CSRS employee who is 56 years old with 32 years of service and
an average high-3 annual salary of $55,000.15 This employee meets the retirement
eligibility requirements for an immediate retirement annuity, age 55 and 30 years of
service. A 1-year service credit would increase this employee‘s annuity by 2 percent or
$1,100 each year. Employees who have not reached the retirement age of 55 incur an
annuity penalty of 2 percent for each year they are under that age.




13
   39 U.S.C. § 401(10).
14
   39 U.S.C. § 1004.
15
   The average salary for all FERS and CSRS career employees is $55,741.00, as of September 22, 2011.


                                                       5
Employee Retirement Options                                                                         HR-MA-12-001



Example 1: CSRS Annuity Formula for Employee age 56 with 32 Years of Service and
a 1-Year Service Credit Added
 Years of                                   Without 1-Year        With 1-Year
              Percentage of Salary
 Service                                     Service Credit      Service Credit
              1.5% of high-3 average salary
 1-5          for each year                            7.50%                 7.50%
              Plus 1.75% of high-3 average
 6-10         salary for each year                     8.75%                 8.75%
              Plus 2% of high-3 average
 11-32        salary for each year                    44.00%               44.00%
 1-year service credit equals extra 2%                 0.00%                 2.00%
 Total percentage of salary                           60.25%               62.25%
 Annual Annuity16                                 $33,137.50           $34,237.50

Example 2 shows a CSRS employee who is 55 years old with 29 years of service. This
employee meets the retirement eligibility requirement for age but not service credit. A
1-year service credit would enable this employee to retire with an immediate annuity.

Example 2: CSRS Annuity Formula for Employee age 55 with 29 Years of Service and
a 1-Year Service Credit Added
 Years of                                   Without 1-Year         With 1-Year
              Percentage of Salary
 Service                                     Service Credit      Service Credit
              1.5% of high-3 average salary
 1-5          for each year                            7.50%                7.50%
              Plus 1.75% of high-3 average
 6-10         salary for each year                     8.75%                8.75%
              Plus 2 percent of high-3
 11-29        average salary for each year            38.00%               38.00%
 1-year service credit equals extra 2%                 0.00%                2.00%
 Total percentage of salary                           54.25%               56.25%
 Annual or Deferred Annuity17                   $29,837.5018           $30,937.50

Federal Employees Retirement System

FERS is composed of three parts: a defined benefit plan (basic annuity), the Thrift
Savings Plan (TSP), and Social Security at age 62; and, for some retirees, the FERS
Annuity Supplement from minimum retirement age until age 62. An employee needs to
consider each of these components when weighing the benefits of a service credit and
voluntary early retirement.

    Basic annuity – a standard formula used to compute a yearly basic annuity:
     1 percent multiplied by years of service multiplied by average high-3 annual salary.
16
   Annual annuity based on the high-3 average salary of $55,000 under regular retirement.
17
   Annual annuity based on the high-3 average salary of $55,000 under regular retirement.
18
   A CSRS employee age 55 with only 29 years of service is not eligible for immediate annuity because they do not
have 30 years of service. However, the employee is eligible for a deferred annuity payable at age 62.


                                                         6
Employee Retirement Options                                                                             HR-MA-12-001



     The percentage increases from 1 to 1.1 percent for those retiring at age 62 or later
     with at least 20 years of service. In addition, employees who retire with at least
     10 years — but less than 30 — years at their minimum retirement age (but who have
     not reached age 60 with 20 years of service) have their annuity reduced by
     5 percent for every year they are under age 62, unless they choose to postpone
     receipt of their annuity to lessen or avoid the age reduction.

    TSP – a tax-deferred retirement savings and investment plan that offers the same
     type of savings and tax benefits that many private corporations offer their employees
     under 401(k) plans. By participating in the TSP, employees may save part of their
     income for retirement, receive matching agency contributions on the first 5 percent
     of the employee‘s annual salary that they contribute each pay period, and reduce
     current tax liabilities.

    Social Security – retired employees are eligible for Social Security benefits
     beginning at age 62, if they have the minimum number of credits19 to be eligible for
     benefits. Retired FERS employees may be eligible for the FERS annuity supplement
     from minimum retirement age until age 62. OPM calculates the supplement, which
     represents what an employee would receive for his FERS civilian service. To
     calculate the FERS annuity supplement, OPM first estimates the employees full
     career (40 years) Social Security benefit amount. Since, the supplement is for FERS
     civilian service only, OPM reduces the full retirement benefit accordingly. For
     example, if OPM estimated an employee‘s full career Social Security benefit to be
     $1,000 a month and the employee worked for 30 years under FERS, OPM would
     divide 30 by 40 (.75) and multiply $1,000 by .75 for a $750 FERS monthly annuity
     supplement.20




19
   If you work and pay Social Security taxes, you earn a maximum of four ―credits‖ each year. Credits are based on
total wages and self-employment income during the year. In 2012, you must earn $1,130 to get one credit, $4,520 for
the maximum of 4 credits. If you were born in or after 1929, you need 40 credits (10 years) to get retirement benefits.
20
   The supplement is reduced $1 for every $2 a retiree earns beyond the Social Security annual earnings limit. For
2011, the earnings limit is $14,160.


                                                           7
Employee Retirement Options                                                                            HR-MA-12-001




Example 1 shows an annuity estimate for a FERS employee at minimum retirement
age, but less than 62 years of age, with 28 years of service. A 2-year service credit
gives the employee 30 years of service and makes the employee eligible for an
immediate retirement annuity. Because the employee is at minimum retirement age and
has 30 years, there is no reduction of annuity. In addition, the employee is at the
minimum retirement age but less than 62 years of age, so the employee would also be
eligible for a FERS supplemental annuity.21

Example 1: FERS Annuity for Employee at Minimum Retirement Age but Less than
Age 62 with 28 Years of Service and a 2-Year Service Credit
                                                             Without    With 2-Year
 Years of                                                     2-Year     Service
                  Percentage of Salary
 Service                                                     Service       Credit
                                                                   22
                                                             Credit
                  1.0 percent of high-3 average salary for
 1-28             each year                                     28.00%      28.00%
 2-year service credit equals 2%                                 0.00%        2.00%
 Total percentage of salary                                     28.00%      30.00%
 Annual annuity23                                           $15,400.00 $16,500.00
 FERS supplemental annuity at minimum retirement age
 until age 62 (based on the preceding example - $700
 multiplied by 12 for 28 years of service and $750
 multiplied by 12 for 30 years of service)                  $8,400.0024  $9,000.00
 Annual Annuity and FERS Supplemental Annuity               $23,800.00 $25,500.00




21
   OPM pays the supplement from the employee‘s minimum retirement age until age 62. At 62 employees are eligible
for a permanently reduced Social Security benefit. Employees can maximize their Social Security benefit if they delay
receipt of their Social Security benefit payment to a later age.
22
   This employee is only eligible for an unreduced immediate retirement annuity if he is at least 60 years of age,
(eligibility at 60 years of age and 20 years of service). An employee at minimum retirement age who is less than age
60 with 28 years of service would be eligible for a reduced immediate retirement. The annuity benefit would be
reduced by 5 percent each year for every year the employee is under age 62, unless his benefit starts when he
reaches age 60 or later. The employee may choose to postpone receipt of the annuity to lessen or avoid the age
reduction.
23
   Annual annuity based on the high-3 average salary of $55,000 under regular retirement.
24
   Employees are eligible for the FERS annuity supplement if they voluntarily retire on an immediate annuity that is
not reduced for age. They are also eligible if they retire involuntarily before attaining minimum retirement age or
voluntarily because of a major reorganization or reduction in force. However, they are not eligible for the supplement
until their minimum retirement age.


                                                          8
Employee Retirement Options                                                                              HR-MA-12-001



Example 2 shows an annuity estimate for a FERS employee at any age, with 23 years
of service. The example demonstrates how the annuity amount would increase if the
Postal Service were to offer voluntary early retirement combined with 2 years of service
credit. 25 For example, a 2-year service credit would give the employee the required
25 years of service for an immediate retirement and add 2 percent to his or her annuity.
If the employee was at the minimum retirement age and less than 62 years of age, the
employee would also be eligible for a FERS supplemental annuity.24

Example 2: FERS Annuity for Employee under VERA at any age with 23 Years of
Service and 2-Year Service Credit
                                                          Without    With 2 -Year
 Years of                                                  2-Year      Service
                  Percentage of Salary
 Service                                                   Service      Credit
                                                           Credit26
                  1.0% of high-3 average salary for each
 1-23             year                                       23.00%       23.00%
 2-year service credit equals 2%                              0.00%         2.00%
 Total percentage of salary                                  23.00%       25.00%
 Annual annuity27                                        $12,650.00   $13,750.00
 FERS supplemental annuity at minimum retirement age
 until age 62 (based on the preceding example - $575
 multiplied by 12 for 23 years of service and $625
 multiplied by 12 for 25 years of service)               $6,900.0024    $7,500.00
 Annual Annuity and FERS Supplemental Annuity            $19,550.00   $21,250.00

Re-employment for Annuitants

Rehiring annuitants is an employment arrangement that allows a retiree to work
part-time or full time after retirement, while providing needed skills to the rehiring
agency. Advantages of part-time work for newly retired employees include flexible work
arrangements and the opportunity to supplement retirement income.

A federal annuitant rehired under a federal appointment is considered a ‗re-employed
annuitant‘. The law28 requires that the salary of a re-employed annuitant be reduced or
―offset‖ by the amount of the annuity, whether the employee works part-time or full-time.
However, under the National Defense Authorization Act (NDAA) of 201029 CSRS and
FERS employees who retire can be re-employed without having their salaries reduced
by the amount of their annuity. Individuals employed under these provisions will not be
25
   Combining the years of service credit with a VERA increases the number of employees eligible for immediate
retirement annuity without penalty by 108,292, as opposed to 58,467 with just a service credit.
26
   If this employee is age 50 or older with 23 years of service, he is eligible for an immediate retirement annuity under
VERA (eligibility is age 50 and 20 years service or any age and 25 years service). An employee who is not 50 would
not be eligible for an immediate retirement annuity because he would only have 23 years service (eligibility would be
any age and 25 years service).
27
   Annual annuity based on the high-3 average salary of $55,000 under regular retirement
28
   5 U.S.C. § 8344 (for CSRS reemployed annuitants) and § 8468 (for FERS reemployed annuitants).
29
   P. L. 111-84 (October 28, 2009), see § 1122 which amended 5 U.S.C. § 8344 (CSRS re-employed annuitants) and
5 U.S.C. § 8468 (FERS re-employed annuitants).


                                                            9
Employee Retirement Options                                                                           HR-MA-12-001



entitled to any additional annuity benefits based on re-employment, such as
participation in the FEHB Program, the Federal Employees‘ Group Life Insurance
Program, or retirement pension fund for annuity recalculation.

Under the NDAA, salary reduction is waived for certain critical occupations. The
postmaster general and other federal agency heads may use the waiver without OPM
approval, subject to certain limitations, to justify rehiring an annuitant without the
reduction in pay.30 Some instances where authority may be used to waive salary
reduction include those positions necessary to perform the following:

    Fulfill functions critical to the agency‘s mission.

    Assist in the development, management, or oversight of agency procurement
     actions.

    Promote appropriate training or mentoring programs of employees.

    Assist in the recruitment or retention of employees.

Individuals who meet these requirements can be re-employed for appointments of
1 year or less, not to exceed three 1-year appointments. Re-employed annuitants are
limited to the following workhours:

    Not more than 520 hours during the first 6 months after annuity commencing date.

    The annuitant cannot exceed 1,040 hours during any 12-month period.

    The annuitant cannot exceed 3,120 hours during the re-employment period, which is
     the equivalent of three 12-month periods.

The NDAA is not the only manner in which the Postal Service may rehire annuitants
without a salary reduction. In 1994, the Postal Service obtained OPM approval to
re-employ postal retirees on a temporary basis to serve as rural letter carriers or rural
postmasters.31 Specifically, when normal recruitment efforts for temporary relief carrier
(TRC) or postmaster relief/leave replacement (PMR/LR) positions fail to attract qualified
individuals, the Postal Service can waive the annuity offset.32 Non-postal annuitants
re-employed into TRC and PMR/LR positions are not eligible for an offset waiver. The
Postal Service has continuing approval from OPM to grant these waivers for qualified
postal annuitants.


30
   Agencies‘ authority to grant dual compensation (salary offset) waivers under the provisions of the NDAA expires on
October 27, 2014. See 5 U.S.C. § 8344(l) (7), 8468(i) (7).
31
   P. L. 103-336 (October 3, 1994) amending 39 U.S.C. § 1005(d). The Postal Service accomplished this through its
general re-employed annuitant authority in P.L. 103-336 coupled with explicit waiver authority from OPM that is
applicable only when hiring former Postal Service employees into temporary rural letter carrier or temporary rural
postmaster positions.
32
   See Handbook EL-312, Postal Service Employment and Placement, Section 234.73, dated September 2001,
revised June 2010.


                                                         10
Employee Retirement Options                                                  HR-MA-12-001



For further retirement information, visit OPM‘s (http://www.opm.gov), the Social Security
Administration‘s (http://www.ssa.gov), and TSP‘s (www.tsp.gov) websites.




                                           11
Employee Retirement Options                                                   HR-MA-12-001




                              Appendix A: Additional Information

Background

In 2012, over 189,000 Postal Service employees will meet the age and service eligibility
requirements for retiring with an immediate annuity. Additionally, the Postal Service
estimates it will have to reduce staffing by 220,000 career positions over the next
3 years.

The Senate introduced the 21st Century Postal Service Act of 2012, which proposes:

    Allowing the Postal Service to offer up to 1 year of additional credited service for
    individuals in the CSRS and up to 2 years for individuals in the FERS as an incentive
    to encourage retirement.

   Using the FERS overpayment for buyouts (up to the existing cap for federal workers
    of $25,000 for any one individual) or additional service credits.
A number of retirement options may be available to employees in the near future as part
of new legislation or other new authorities provided to the Postal Service. There may be
restrictions on how the Postal Service can use these options and whether they can be
combined or not. Some of the options available to employees include:

   VERA.
   Cash buyouts.
   Additional years of service credit.
   Re-employment for annuitants.

Objective, Scope, and Methodology

Our objective was to evaluate and describe information on retirement options, including
those options that currently exist and those that may become available as part of new
legislation or other Postal Service initiatives.

We conducted this review from September 2011 through May 2012 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We provided management with a copy of the report on
April 5, 2012 and included their comments where appropriate.

We assessed the reliability of web-based Complement Information System data by
interviewing agency officials knowledgeable about the data. We determined that the
data were sufficiently reliable for the purposes of this report.




                                              12
Employee Retirement Options                                                     HR-MA-12-001




Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this
review.




                                             13
